<html>
<title> - THE EMPLOYMENT SITUATION: JULY 2009</title>
<body><pre>[Senate Hearing 111-338]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-338
 
                  THE EMPLOYMENT SITUATION: JULY 2009

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 7, 2009

                               __________

          Printed for the use of the Joint Economic Committee



                  U.S. GOVERNMENT PRINTING OFFICE
54-511                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Edward M. Kennedy, Massachusetts
Loretta Sanchez, California          Jeff Bingaman, New Mexico
Elijah E. Cummings, Maryland         Amy Klobuchar, Minnesota
Vic Snyder, Arkansas                 Robert P. Casey, Jr., Pennsylvania
Kevin Brady, Texas                   Jim Webb, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                     Nan Gibson, Executive Director
               Jeff Schlagenhauf, Minority Staff Director
          Christopher Frenze, House Republican Staff Director


                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Elijah E. Cummings, a U.S. Representative from Maryland.....     2
Hon. Amy Klobuchar, a U.S. Senator from Minnesota................     4

                               Witnesses

Dr. Keith Hall, Commissioner, Bureau of Labor Statistics, U.S. 
  Department of Labor, Washington, DC; Accompanied by: Mr. Philip 
  L. Rones, Deputy Commissioner, Bureau of Labor Statistics, and 
  Dr. Michael W. Horrigan, Associate Commissioner for Prices and 
  Living Conditions..............................................     5

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney..........    30
Prepared statement of Senator Sam Brownback......................    30
Prepared statement of Representative Kevin Brady.................    32
Prepared statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release USDL-09-0908.....    32


                  THE EMPLOYMENT SITUATION: JULY 2009

                              ----------                              


                         FRIDAY, AUGUST 7, 2009

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:32 a.m. in Room 
562 of the Dirksen Senate Office Building, The Honorable 
Carolyn B. Maloney (Chair) presiding.
    Representatives present: Maloney and Cummings.
    Senators present: Klobuchar.
    Staff present: Nan Gibson, Colleen Healy, Aaron 
Rottenstein, Annabelle Tamerjan, Justin Ungson, and Jeff 
Schlagenhauf.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. The hearing will come to order. I know other 
members are expected, but hearings should start on time.
    Welcome, Commissioner Hall.
    Evidence that the Stimulus Bill is taking hold, is starting 
to emerge. The economy dramatically improved in the second 
quarter of this year, and the pace of job loss has moderated 
significantly in recent months.
    Clearly, the trend is towards recovery. I am optimistic 
that more Americans will be heading back to work as more 
stimulus projects get underway. While we welcome these signs of 
improvement, this morning's BLS report reminds us of the high 
toll that the recession has had on millions of working 
Americans.
    This recession, which began in December of 2007, is now the 
longest and deepest in the post-World War II period. Although 
the economy is predicted to expand later this year, the 
duration of this recession has led to long spells of 
unemployment for some workers.
    With six unemployed workers for each job opening, those out 
of work are finding it increasingly difficult to find a job. 
More than one-third of the unemployed, a staggering five 
million Americans, have been without a job for at least six 
months. This is the highest on record, in both percent and the 
sheer numbers. Over 2.3 million workers have been unemployed 
for a year or longer.
    The National Employment Law Project estimates that by the 
end of September, more than 500,000 workers who lost their jobs 
through no fault of their own, will exhaust their federally-
funded unemployment benefits before finding a job.
    By the end of this year, the number could grow to 1.5 
million. For many, those weekly benefit checks are the ever-so-
thin cushion that allows them to keep up with their utility 
bills, stay current on their credit card bills, and meet basic 
needs.
    Congress and the President worked swiftly to expand and 
extend the Unemployment Insurance Program for the thousands of 
workers losing their jobs each month. We funded up to 20 
additional weeks of benefits at the state level, through the 
Extended Benefits Program.
    The Emergency Unemployment Compensation Program also 
provided up to an additional 20 weeks of federally-funded 
benefits for workers in all states, and an additional 15 weeks 
for laid-off workers in states with exceptionally high rates of 
unemployment.
    Many jobless Americans are receiving an additional hundred 
dollars a month, due to provisions in the Recovery Act, but for 
many of these unemployed workers, it is not just the income 
that they have lost; for millions of jobless Americans and 
their families, health insurance benefits have evaporated or 
may stop.
    The Joint Economic Committee released a report yesterday, 
estimating that 1.4 million women and 2.7 million men, have 
lost their employment-based health insurance, because of job 
losses during this recession.
    Today's job report makes it clear, we are making progress, 
but it will be a long road to recovery. By extending 
unemployment benefits, we will give out-of-work Americans 
across the country, some peace of mind, as they continue to 
search for work.
    By passing healthcare reform, millions of uninsured 
Americans will have access to affordable healthcare insurance, 
regardless of their employment status.
    I look forward to working with my colleagues in the House 
and the Senate, to act swiftly on behalf of the millions of 
unemployed Americans across this country.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 30.]
    [The prepared statement of Senator Sam Brownback appears in 
the Submissions for the Record on page 30.]
    [The prepared statement of Representative Kevin Brady 
appears in the Submissions for the Record on page 32.]
    Chair Maloney. I now call on my colleague, Mr. Cummings, 
for five minutes.

 OPENING STATEMENT OF THE HONORABLE ELIJAH E. CUMMINGS, A U.S. 
                  REPRESENTATIVE FROM MARYLAND

    Representative Cummings. Thank you very much, Madam Chair. 
As we continue to emerge from the worst recession since the 
Great Depression, it is sobering when the loss of 247,000 jobs, 
qualifies as good news.
    However, Treasury Secretary Geithner and former Federal 
Reserve Chairman Alan Greenspan, did suggest on Sunday, that 
the United States economy may have turned a corner. Both men 
point to forecasts that portend possible economic growth in the 
second half of 2009.
    Further, the New York Times yesterday reported comments by 
economist Christina Romer and Allen Sinai, that the stimulus 
has driven the recovery, adding some two percentage points to 
the economic activity.
    However, as we know, unemployment is a lagging indicator, 
and, as White House advisor, Dr. Larry Summers, noted, it will 
be some time before economic growth produces consistent job 
growth, so I will resist any impulse to put on rose-colored 
glasses.
    One of the reasons why I wanted to be here this morning, is 
because I have consistently heard that before this 
Administration did the things that it did, people were 
constantly saying that it would do no good, and I expected to 
hear, as I heard from former Senator Fred Thompson of 
Tennessee, this morning, there are some folks giving no credit 
to this Administration for their efforts, and I wanted to make 
sure that the record is clear, that while we may not see the 
very end to this long tunnel, the fact is, is that the things 
that we are doing, are making a difference.
    After the loss of 6.7 million jobs since the recession 
began, the effect on families and communities, is now being 
felt more severely than ever. More and more Americans remain 
unemployed for longer and longer stretches.
    Today's data tell us that the number of long-term 
unemployed, continues to climb. Five million Americans have 
been unemployed for over six months, 2.3 million for over 12 
months, so these individuals and families struggle to put food 
on the table and pay rent each month.
    The states' coffers, on which the unemployed depend, 
continue to be empty. Long-term unemployed residents affect 
state and local government in the form of reduced tax revenue.
    When this occurs, crucial government services are put at 
risk. Now, not only are hardworking Americans unable to find 
employment, but the unemployment safety net has stretched 
dangerously thin in some states and torn altogether in others.
    This Congress has previously taken dramatic action in this 
recession, to reduce the burden of unemployment on families. 
The Stimulus Bill included funds to extend and increase state 
unemployment benefits. This relief was and continues to be so 
essential for those who are struggling.
    Now we find that the weight of the cumulative job losses, 
forced 18 states to borrow $12.1 billion from the Federal 
Unemployment Trust Fund, just to keep benefits available to 
unemployed residents.
    Facing the potential exhaustion of this critical fund in 
August, I was proud to join so many of my colleagues last week 
in supporting emergency funding for the Federal Unemployment 
Trust Fund.
    This 11th hour action will ensure that 4.6 million workers 
will have vital unemployment benefits in August and September, 
however, I also hope that upon our return from recess, that we 
are able to move another extension of unemployment benefits 
through the House.
    While the recession has provided its share of bad actors, 
the unemployed, our constituents, remain our responsibility. 
I'm proud of what we have accomplished as a Congress, but I 
know we can and will do more and that we will do better.
    I look forward to the testimony of the Commissioner, Mr. 
Hall, and, with that, Madam Chair, I yield back.
    Chair Maloney. Senator Klobuchar, for five minutes.

   OPENING STATEMENT OF THE HONORABLE AMY KLOBUCHAR, A U.S. 
                     SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair, and 
thank you for being here today. It does seem like we have just 
a little stability going here, and I'm looking forward to 
asking questions of all of you to see what this means, as I 
heard Representative Cummings so well say that, in fact, we 
know we're not out of this, that this isn't going to turn 
around overnight, that we still have incredible challenges for 
the people of this country.
    But the fact is that I will say, being in Minnesota for the 
last--off and on for the last few weeks, there are some signs 
I've seen. We have a 20-percent increase in home sales in our 
state, from June of last year to June of this year.
    I met with the realtors in Minnesota, and they attribute a 
lot of that to the $8,000 first-time homebuyers tax credit. 
Nearly half of these home sales were first-time homebuyers.
    And then there's the anecdotes. When I was going to get 
coffee and this guy was standing next to me in line and told me 
that he's overwhelmed by work. I said, what do you do? He said, 
I move people, I move their things out of apartment buildings, 
because they're buying their first-time home.
    So I think that we have seen, at least in our state, some 
of the effects of this. The Cash for Clunkers program, our 
state, the State of Minnesota, was fourth in the country for 
the number of people that used that program over that weekend, 
up there with California and Michigan.
    So I think you see people starting to believe that there is 
hope in this economy, with the numbers for consumer confidence 
and other things that we've seen.
    But that isn't quite enough, because I can tell you that 
we're still not where we should be. I have talked to so many 
people in our state, letters that I've received of people that 
say that they put their kids to bed and then they go sit at the 
kitchen table with their heads in their hands, wondering how 
they're going to make ends meet, while they're telling their 
kids everything is okay.
    We just heard from someone the other day, a woman who's 
unemployed and uses her savings to pay $250 a month for 
healthcare that requires a $10,000 deductible.
    The iron ore miners up in the northern part of my state, 
which was really actually a part of our state that until the 
recession hit, was really going better than it had been in 
decades, and then suddenly the rug was pulled out from under 
them when the worldwide demand for steel and other minerals 
declined, and, suddenly, they were unemployed.
    And this wasn't the traditional set of unemployed. In the 
past, it tended to be older workers who were laid off. These 
were younger workers who had hoped and moved up there and 
bought houses.
    As Representative Cummings has pointed out, the 
unemployment extension is very meaningful to those people, but 
there are parts of the iron range in Minnesota that are seeing 
a 20-percent unemployment rate, and that is obviously 
unacceptable.
    I'm very much looking forward to seeing Commissioner Hall 
and other witnesses, just your view of these somewhat hopeful 
figures that we've seen, stability for one month, and what that 
means as we go forward. Thank you very much.
    Chair Maloney. Thank you, Senator. Now I'd like to 
introduce Commissioner Hall. Dr. Keith Hall is the Commissioner 
of Labor Statistics for the United States Department of Labor.
    The BLS is an independent national statistical agency that 
collects, processes, and analyzes essential data and 
disseminates it to the American public, the U.S. Congress and 
other federal agencies.
    Dr. Hall also served as Chief Economist for the White House 
Council of Economic Advisors for two years under President 
George W. Bush. Prior to that, he was Chief Economist for the 
U.S. Department of Commerce.
    Dr. Hall also spent ten years at the U.S. International 
Trade Commission. Dr. Hall received his B.A. degree from the 
University of Virginia, his M.S. and Ph.D. degrees in economics 
from Purdue University.
    Welcome.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
     STATISTICS, U.S. DEPARTMENT OF LABOR, WASHINGTON, DC; 
   ACCOMPANIED BY: MR. PHILIP L. RONES, DEPUTY COMMISSIONER, 
   BUREAU OF LABOR STATISTICS, AND DR. MICHAEL W. HORRIGAN, 
    ASSOCIATE COMMISSIONER FOR PRICES AND LIVING CONDITIONS

    Commissioner Hall. Thank you, Madam Chair and Members of 
the Committee.
    Nonfarm payroll employment decreased by 247,000 in July and 
the unemployment rate was little changed at 9.4 percent. 
Payroll job losses over the past three months have now averaged 
331,000, compared with an average of 645,000 over the prior six 
months.
    Employment has fallen by 6.7 million since the start of the 
recession in December of 2007. In July, employment declines 
continued in many of the major industry sectors.
    Construction employment fell by 76,000 over the month, with 
losses throughout component industries.
    Over the past three months, job losses have averaged 
73,000, compared with 117,000 over the prior six months.
    Employment in construction has fallen by 1.4 million since 
December of 2007.
    Manufacturing employment also continued to decline, with 
the loss of 52,000 in July. Factory employment has fallen by 
two million since the start of the recession.
    The seasonally-adjusted employment estimate for motor 
vehicles and parts rose over the month by 28,000. Because 
layoffs in auto manufacturing already had been so large, fewer 
workers than usual were laid off for seasonal shutdowns in 
July; thus, the seasonally-adjusted gain does not necessarily 
indicate improvement in the industry.
    Employment in motor vehicles and parts manufacturing has 
been on a long-term decline. The number of jobs in the 
industry, 661,000, is now half of what it was in early 2000.
    In July, job losses continued in wholesale trade, 
transportation and warehousing, and financial activities; 
however, these industries have lost fewer jobs, on average, 
since May, than during the prior six months. Similarly, job 
losses have lessened substantially in temporary help services.
    Employment in leisure and hospitality has been little 
changed over the past three months, and healthcare employment 
grew about in line with the trend thus far in 2009.
    Average hourly earnings for production and non-supervisory 
workers in the private sector were up by 3 cents in July, to 
$18.56. Over the past 12 months, average hourly earnings have 
risen by 0.7 percent.
    From June 2008 to June 2009, the Consumer Price Index for 
Urban Wage Earners and Clerical Workers, declined by 1.7 
percent.
    Turning now to measures from our household survey, the 
unemployment rate in July was 9.4 percent, little change for 
the second consecutive month. The rate had been 4.9 percent 
when the recession began. There were 14.5 million unemployed 
persons in July.
    The number of long-term unemployed continued to rise. In 
July, five million people had been unemployed for more than six 
months, accounting for one in three unemployed persons.
    The employment-to-population ratio was 59.4 percent in 
July. The ratio has fallen by 3.3 percentage points since the 
recession began.
    Among the employed, there were 8.8 million persons working 
part-time in July, who would have preferred full-time work. 
After rising sharply last fall and winter, the number of such 
workers has been little changed for four consecutive months.
    In summary, nonfarm payroll employment fell by 247,000 in 
July and the unemployment rate was little changed at 9.4 
percent. My colleagues and I would now be happy to answer your 
questions.
    [The prepared statement of Commissioner Hall appears in the 
Submissions for the Record on page 32.]
    Chair Maloney. Thank you very much, Commissioner Hall. I 
usually ask you, are there any bright spots in the labor 
report? Are there any green shoots or glimmers of hope? But, 
today, I can ask you, what are the bright spots and the 
glimmers of hope?
    Commissioner Hall. In this report, there's still 
substantial job loss, but the last three months, there's been 
clear moderation in the job loss, and the moderation has been 
pretty broad, which I think is a good sign.
    While I would say that we're not in recovery yet, this is 
the path that we have to go to get to recovery. We expect to 
see moderation first, before we start actually getting 
improvement in the labor market.
    There are a couple things I'll mention, which are 
indicators of maybe future conditions in the job market: 
Temporary help services, the job loss there has slowed 
substantially, and that oftentimes is a leading indicator of a 
recovery.
    We had a tick up in hours worked. While one month, I 
wouldn't read too much into this, but sometimes a pickup in the 
hours worked, is an indication of a labor market that's 
strengthening, and it may sometimes lead to job gains somewhere 
down the line.
    Chair Maloney. Do you believe we've seen the worst, or is 
there more pain ahead?
    Commissioner Hall. You know, it's--we're still getting 
substantial job loss, but it is quite a bit--has moderated 
quite a bit, going forward.
    It's hard to say, like I say, going forward, to estimate or 
project what's going to happen, but I think, on the whole, this 
is a good sign.
    Chair Maloney. Great. Are there any sectors experiencing 
more job creations than job losses, currently, or, are there 
any signs that any sector will start expanding in the near 
future?
    Commissioner Hall. Across the board, the job losses have 
moderated, which is positive. A few sectors, like healthcare, 
has continued--they've continued to increase employment all 
along.
    A few sectors, like the financial activities, the job loss 
there has moderated quite a bit, and it's getting fairly--if 
that trend were to continue, it's getting fairly close to 
actually getting some job gains in some of the service areas.
    And in a few of these industries, I would say that the job 
loss was not significant; in other words, it's around zero.
    Chair Maloney. Are there any indicators that overall job 
losses will continue to slow in coming months?
    Commissioner Hall. I don't want to speculate too much. You 
know, 247,000 jobs, that's a lot of jobs and that's a big loss, 
but, given the context of the sort of job loss that we'd been 
having, again, this is a good trend at the moment.
    Chair Maloney. And what is the typical amount of time after 
a contraction ends, before labor markets start showing signs of 
recovery?
    Commissioner Hall. Well, in one sense, the signs come right 
away. When recoveries come, job loss moderates.
    In the past two recessions, there's been a significant 
period between consistent job loss and consistent job gain; 
there's been a bit of a lag. For example, in the last 
recession, consistent job loss ended and we were in this sort 
of middle ground where there wasn't consistent job creation for 
almost two years.
    This is one of the reasons why people talk about the labor 
market being a lagging indicator. In the 1990 recession, the 
lag was about a year, but, prior to that, the lag was not so 
much; it was only a month or two before job increases started, 
so I'd say it's hard to say.
    Recent recessions have been slow to see--we've been slow to 
see job growth.
    Chair Maloney. Thank you. Any other comments?
    [No response.]
    Chair Maloney. Mr. Cummings for five minutes.
    Representative Cummings. Thank you very much, Madam Chair. 
I was just looking at page 2 of this report, and I was looking 
at the African American figures, Mr. Hall, and, from what I can 
see here, in July, the unemployment rate for African Americans 
is 14.5 percent; is that correct? July, 2009? I'm on page 4.
    Commissioner Hall. Yes, 14.5, thank you.
    Representative Cummings. And that compares to when we go 
back to May when it was 14.9, and then in June, it was 14.7, 
and then coming down to 14.5.
    That, as usual, is substantially higher than the average 
rate for the country; is that right?
    Commissioner Hall. That's correct.
    Representative Cummings. And while there is an improvement 
there, does that improvement, does that surprise you, or is 
that pretty much the way you expected it to be?
    Commissioner Hall. It's actually kind of the way I expected 
it to be. The unemployment rate for minorities such as African 
Americans, runs higher than the average unemployment rate, and 
it goes up more during a recession, but the actual changes, the 
pattern of changes, do sort of match the overall unemployment 
rate.
    So we've had a pretty flat unemployment rate the last 
couple of months and it's been fairly flat for African 
Americans.
    Representative Cummings. Now, moving on to another subject, 
you mentioned that we're going through, with regard to the job 
situation, moderation. What does ``moderation'' mean?
    I think you said the moderation has been broad. Would you 
give me the significance of the broadness that you talked 
about?
    Commissioner Hall. Sure. I think that in this recession, in 
particular, the job loss has been very broad in a lot of 
different industries, where that doesn't always happen that 
way, and it's been very deep.
    And we're backing out sort of the same way so far, that the 
job loss has moderated in a very broad sense, so we're not 
seeing just particular sectors of the economy that are starting 
to improve a little bit; we're seeing sort of broad improvement 
in terms of job loss moderation.
    Representative Cummings. So, I take it, is that a good 
thing?
    Commissioner Hall. Yes.
    Representative Cummings. And why is that a good thing?
    Commissioner Hall. Hopefully, because it's a matter of, at 
least in mind, a matter of consumer confidence coming back and 
consumer spending coming back, because, more than anything 
else, that's at the heart of a recession, is that when 
consumers don't spend, things don't go well for the economy.
    Representative Cummings. On another subject, yesterday the 
Committee released a report, thanks to the Chair, that 
discussed comprehensive health insurance and its impact on 
women. The report said there are specific economic and health 
risks for women regarding their ability to obtain and keep 
health insurance.
    For example, women are more likely to rely on their 
spouses' employers to provide them with health insurance. More 
often, this is due to the fact that women are more likely than 
men to work part time, and thus be ineligible for employer 
health benefits.
    What is the unemployment rate for women?
    Commissioner Hall. The unemployment rate for women is 8.1 
percent.
    Representative Cummings. How much?
    Commissioner Hall. Eight point one.
    Representative Cummings. And what is the under-employment 
rate for women?
    Commissioner Hall. Let me see. Do we have a broader--we 
don't break out the broader underutilization numbers by gender.
    Representative Cummings. Okay, well, our report yesterday 
on women and healthcare, reported that young women are facing 
high unemployment, 15.7 percent, and thus are less likely to 
have employer-based health insurance.
    By what industry is the segment of the population typically 
employed, that is, that younger female worker? You wouldn't 
have that information, either?
    Commissioner Hall. No, I don't. We don't have a lot of 
demographic information.
    Representative Cummings. So you wouldn't know the current 
unemployment rate; you wouldn't have that information, okay.
    The average length of unemployment is increasing as 
unemployed workers are having problems finding employment 
during a time when the economy is shedding jobs. How is this 
impacting women; do you know? Would you have that information?
    Commissioner Hall. Yes. I think--let me see, do we have it 
broken down by gender?
    I don't think we have the long-term unemployed broken out 
by demographic information. You know, women have fully 
participated, generally, in the job loss during this recession, 
so I would say they are probably unfortunately well represented 
in the long-term unemployed.
    Representative Cummings. All right, I see my time is 
running out, but I want to ask you something about this Cash 
for Clunkers, but hopefully we'll have another round.
    Chair Maloney. Sure, absolutely. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair. Thank 
you very much, Commissioner Hall. Here we are again.
    I wanted to focus first just on some broad figures, and 
just go back to what you were talking about at the beginning 
about the hardest-hit sectors.
    I know you mentioned construction and manufacturing, and, 
on the other hand, sectors that seem to be getting better more 
quickly. Healthcare, I know you've always mentioned healthcare 
has been doing fine.
    Since my state's a healthcare mecca, maybe that's part of 
the reason we're beneath the national unemployment rate, but 
what is the--what do you see as the hardest-hit sectors and 
what are the ones you see improvement in?
    Commissioner Hall. I think, through this recession, some of 
the hardest-hit sectors are the sectors like construction and 
manufacturing.
    And I think, broadly, services have been hit harder than 
normal, but services typically aren't hit as hard during 
recessions.
    Senator Klobuchar. And with construction and manufacturing, 
have there been any--has that slowed, the unemployment rate 
there, or is there any improvement in that?
    Commissioner Hall. There has been improvement in both 
construction and in manufacturing.
    Senator Klobuchar. But by ``improvement,'' that means a 
slowing of the unemployment rate?
    Commissioner Hall. A moderation of job loss. It's clear 
moderation of job loss in construction. In manufacturing, the 
picture is a little less clear.
    There may be some moderation, but it's coming--if it's 
there, it's coming a little later than the other sectors.
    Senator Klobuchar. Okay, and how about the areas of 
improvement?
    Commissioner Hall. The big areas of improvement are things 
like the financial activities. That's been hit much harder this 
recession, I think, than almost any past recession. That's 
coming back.
    Temporary help services, I think, is one of the more 
encouraging.
    Senator Klobuchar. Didn't you once tell me that temporary 
help services--or maybe someone else did--is always a sign that 
there could be some improvement, or not?
    Commissioner Hall. It tends to be a leading indicator. 
Temporary help services started shedding jobs before the 
recession started, and it typically starts to moderate and 
maybe even gain jobs before the rest of the economy does.
    Senator Klobuchar. And is that because people sort of take 
one step at a time and they think, well, our business is doing 
a little better, so, we'll get temporary services first?
    Commissioner Hall. I think that's exactly right. I think, 
to a large degree, that's the advantage of temporary help, is 
that they're there for the flexibility. Sometimes they're the 
first ones to be let go and the first ones to bring back.
    Senator Klobuchar. Okay, all right. Then I was going to ask 
you about geographic areas, if there's been a change there. 
What are the hardest-hit states and what are the states that 
have seen--that are doing better, and is there any--I remember 
when we were at the worst of this, at one of these hearings, 
you were saying how, really, you couldn't really even point out 
a geographic area, because it was bad all across the country.
    I wonder if that has changed at all, if there's some 
dramatic improvements or dramatic declines?
    Commissioner Hall. I'm not seeing a really big change in 
the pattern among states. The unemployment rate has moderated; 
it hasn't grown much, and I think that's been roughly the same 
pattern, I think, throughout the states.
    I'm not seeing a big change patterns. There might be 
individual states that are still having troubles, but----
    Senator Klobuchar. What are the states that are hardest 
hit?
    Commissioner Hall [continuing]. Largest losses----
    Senator Klobuchar. Or just the largest unemployment rate.
    Commissioner Hall [continuing]. Well, the biggest losses 
are states like Michigan, Arizona, Nevada, Florida. In terms of 
overall numbers, California has been the hardest hit, but 
that's also a very large state, so, in percentage terms, it's 
not quite so bad.
    Senator Klobuchar. Okay, and which ones are doing the best? 
You could come back on the second round and tell me.
    Commissioner Hall. Okay. I do have those numbers. I just 
have to dig for them.
    Senator Klobuchar. I thought I'd just ask one or two 
questions that I actually got, verbatim, from some of our 
citizens recently.
    This one is from someone, a woman in Lakeshore, Minnesota, 
and she says, ``Dear Amy, I'm sitting here watching the 
President's news conference and realizing that my husband and I 
do not fit into any of the categories''--this is like a 
question for you, Commissioner Hall--``do not fit into any of 
the categories of families unemployed that he is speaking 
about. My husband and I own a small construction company. We 
don't have the option of filing for unemployment, because we 
are self-employed. Many of our friends are in the same 
position. My comment is that all of the figures and stats that 
are out there regarding housing and unemployment, aren't even 
counting those of us who can't file for unemployment and are on 
the verge of losing our home, because no one else is building. 
I just need to get that off my chest.'' That's her talking, not 
me.
    ``There are people that are unemployed that at least can 
get unemployment, yet there are a lot of us that don't have any 
income at all. Are there statistics--'' this is from a woman in 
Lakeshore, Minnesota--``on how many are not getting 
unemployment and are unemployed?''
    She means people who don't qualify to get unemployment, but 
have lost their businesses or lost their incomes.
    Commissioner Hall. Well, actually, we do collect 
information on people who are self-employed. In particular, in 
the household survey, the unemployment rate includes basically 
everybody, because that's a phone survey to households.
    Senator Klobuchar. And what do you see from these small 
business owners who, you know, have been hit by this? Or self-
employed?
    Commissioner Hall. Sure. The self-employed have certainly 
struggled the same way that the others, the non-self-employed 
have with this.
    That's been one of the remarkable things about this 
recession, is that it has been very, very broad, and I think 
it's been broad with respect to the type of employment and type 
of firm, small businesses.
    Senator Klobuchar. All right, so when we look at this, when 
we look at these numbers, when we look at the 9.4 percent 
unemployment, that does not include--we've already talked about 
these discouraged workers in the past, and it doesn't include 
people whose hours have been reduced, but it also doesn't 
include some of the small business owners who may be self-
employed, that have lost their businesses, right?
    Commissioner Hall. Well, actually, it does include these 
self-employed.
    Senator Klobuchar. It does include them?
    Commissioner Hall. Yes.
    Senator Klobuchar. Right, so it just doesn't include the 
people who have lost hours and are discouraged workers?
    Commissioner Hall. Exactly, the class of people, for 
example, that are part time, for economic reasons. We collect 
those, but that data is not part of the unemployment rate, and 
then we have a whole category of discouraged workers, the 
people who have stopped looking for work but want to work.
    Senator Klobuchar. So the answer to this woman, is, while 
she can't collect unemployment, you do look at including her 
kinds of numbers in your statistics?
    Commissioner Hall. Yes, we do.
    Senator Klobuchar. All right, thank you very much.
    Chair Maloney. Thank you. Commissioner, we hear a great 
deal from the media and others, that this is the greatest 
recession since the Great Depression. I'm interested in how 
this recession compares to past slumps, and how does it compare 
to past downturns, in terms of its impact on the labor market?
    Commissioner Hall. All right, well, this recession has been 
a long recession; it's been the longest recession since we've 
been collecting data on the labor market--19 months.
    We've now lost 4.8 percent of our payroll jobs, which is a 
lot. That's the biggest loss since the 1948 recession, in 
percentage terms, so we're talking about 60 years in terms of 
percentage loss.
    Particularly hard hit this time has been the service-
providing sector. In fact, the service-providing sector has 
lost more jobs, as a percent, than in any other recession. 
Manufacturing has been the hardest hit since 1945.
    We have lost almost 14 percent of the manufacturing jobs, 
and in financial activities and professional and business 
services those have been hit harder than in any other 
recession.
    Chair Maloney. So this is the longest jobless period the 
United States has ever had?
    Commissioner Hall. Yes, since we have been collecting data 
from around 1940.
    Chair Maloney. In the last four recessions, how long did it 
take for employment to recover to the pre-recession plan or 
peak?
    Commissioner Hall. Yes. The last recession it took a really 
long time. It took 39 months for it to return to the peak. The 
prior recession to that it was 23 months. It has been getting 
longer and longer, actually, each of the last four recessions. 
The average has been about 17, about a year-and-a-half. Like I 
say, the average has been going up. The last two recessions it 
was a particularly long time period for recovery.
    Chair Maloney. Well one of the green shoots that has been 
reported is that new home sales rose last month. But there are 
still almost nine months' supply of new houses in the market. 
Do you have any sense of what level of inventory of new homes 
will lead to an increase in construction employment?
    Commissioner Hall. First of all I would have to say that 
the months' supply of houses is not--it turns out it is not a 
very good predictor of construction employment, in large part 
because right now we have nine months' supply when sales are 
very low, so nine months' supply during low sales is not very 
many houses compared to nine months say when sales are much, 
much higher.
    What is a good predictor is simply the number of sales. 
When sales pick up, the construction employment does pick up 
fairly much at the same time.
    I can tell you a little bit about housing starts. Once 
housing starts bottom out--and right now housing starts have 
been level now for several months--it can take anywhere from a 
year to a year-and-a-half for construction employment to pick 
up after housing has hit bottom. So it could be a little while.
    Chair Maloney. How much of the economy do you think is real 
estate and housing construction? And are you tracking how many 
of these new housing sales are tied to the program of a subsidy 
for new housing purchases?
    Commissioner Hall. We actually do not collect the housing 
sales data; Census does. Our data on construction employment 
and maybe on real estate employment might give some indication 
of how those industries are doing. There is really no way for 
us to just sort of connect that, at least not the way we 
measure data, to connect to any sort of policy in particular.
    Chair Maloney. Thank you, very much.
    Representative Cummings.
    Representative Cummings. Thank you very much, Madam Chair.
    Mr. Hall, what is the trend for hours worked? And what does 
that mean for families that rely on overtime in addition to say 
base salary?
    Commissioner Hall. Well one of the things that happens when 
labor markets weaken is the hours worked goes down as well as 
the employment rate goes down. And it is sort of yet another 
burden on families, to be honest with you.
    It is the same thing as people moving full-time to 
temporary, or people just having their hours decline. That is a 
cost. And lately it has been fairly flat. And that is a good 
sign, like I say. And when you start to see some substantial 
movement upwards, that can sometimes signal an actual 
improvement in the labor market.
    Representative Cummings. Yesterday I had the occasion to 
visit two auto dealers in my district, and both of them had a 
lot of people trying to take advantage of this Cash for 
Clunkers--and I want to thank the Senate for acting on that--
but they said that it was really making a difference.
    And is there--I mean, do you expect to see the impact of a 
program like that when we pump $3 billion into a program, and 
you've had some comments with regard to the auto industry, but 
do you expect to see anything say in the future with regard to 
that?
    Commissioner Hall. Let me say, I do not want to forecast 
the policy stuff, but----
    Representative Cummings. Yes, I know that, but I am not 
trying to get you to do that, really. I am just trying to----
    Commissioner Hall [continuing]. I can say something----
    Representative Cummings [continuing]. Oh? Wonderful! 
[Laughter.]
    I am always careful about what I ask you.
    Commissioner Hall [continuing]. I appreciate that. Let me 
put it this way: If automobile sales are stimulated, I think 
probably what has happened right now is a lot of the sales have 
come out of inventory. And because they are coming out of 
inventory, that is not going to show up in employment at the 
factories, et cetera.
    But if that is going to have an effect, it is going to have 
an effect going forward because it means factories are going to 
come back on line with the new models. Hopefully they will come 
back on line quicker, and so we will see some employment impact 
in automobile manufacturing later on down the line, like I say, 
if it has a big impact.
    Representative Cummings. As you probably know, the Obama 
Administration with regard to the Stimulus is going to be--a 
lot of money, a huge percentage of the Stimulus money will be 
going into the economy in the next six months. Do you expect to 
see anything resulting from that? And a lot of it is going into 
infrastructure, and so I guess what, if any areas--what areas 
might be affected by that? Are you following me?
    Commissioner Hall. Yes, I do. That is actually a really 
difficult question in a period with the labor markets 
declining. When we do our surveys, we are asking 
establishments: How many people do you have on board right now? 
We are not asking them to more or less speculate on what the 
impact has been of any sort of policy.
    But if--I do not know where the Stimulus money is going to 
be spent, what industries, but I would suspect going forward if 
you look at those particular industries and look at how those 
industries are performing going forward, that might give you 
some insight on the effect of the Stimulus.
    Representative Cummings. You know, you talked a little 
earlier, and you talked briefly about it, about consumer 
confidence and how significant that is.
    From all that you are seeing, from what you can glean from 
your report, are you--do you get--I take it that you get a hint 
at least that people are feeling a little bit better about 
things? Is that a reasonable statement? I do not want to put 
words in your mouth.
    Commissioner Hall. Yes, I think it is.
    Representative Cummings. Okay. And so if that were to 
continue, do you think that you would see this broad moderation 
that you talked about continue? Or do you think that you would 
see it say in certain areas like manufacturing, or auto sales, 
or whatever? Do you follow me?
    Commissioner Hall. Yes. That is a little bit tough. Because 
the loss has been very broad, I think probably the impact would 
be broad. So I would hope to see that the moderation continues 
until we get actual job growth.
    Representative Cummings. And so when you got this report 
today, how did you feel? I am just curious. You always--it is 
hard to get anything out of you sometimes, but I am just 
curious.
    Commissioner Hall. Well right now it is a strange feeling 
because 250,000 jobs is--that is really hard on people. But 
given the context of things, this is good news.
    Representative Cummings. Thank you, very much.
    Chair Maloney. Senator Klobuchar.
    Senator Klobuchar. All right. Thank you. I was just looking 
back here at this chart and thinking about how it was quite a 
bit worse in January of '09. Is that right, Commissioner Hall?
    Commissioner Hall. Yes.
    Senator Klobuchar. I am looking at this and seeing these 
changes till now and thinking about when people get frustrated, 
as I do, with our economic situation and remembering the hole 
that we had to dig ourselves out of, and understanding that it 
is not going to happen overnight. Is that your history with the 
labor market? That these things cannot turn around quickly?
    Commissioner Hall. That is correct; yes.
    Senator Klobuchar. Okay, at the past hearings I have asked 
you about something to keep apprised of what is going on here 
with our men and women in uniform. Because one of the things 
that I have found most distressing is that those who have gone 
over to serve our country, especially in Iraq and Afghanistan, 
and have really gone over since 9/11, or we call them our Gulf 
War Era Veterans, that their unemployment rate is usually 
significantly higher because they have left jobs behind. I 
think in Minnesota of our Guard and Reserve. They left jobs 
behind, and then they come back and those jobs are no longer 
there.
    What is the unemployment rate now for Gulf War Era 
Veterans, those Veterans who have served in the Armed Services 
since September 2001?
    Commissioner Hall. Right now it is 9.8 percent.
    Senator Klobuchar. 9.8 percent. So that seems closer than 
it was in the past. What was it last month?
    Commissioner Hall. Actually I do not have that one in front 
of--oh, thank you. It was 9.3 percent last month, but in May it 
was 11.4 percent.
    Senator Klobuchar. That was when I last talked to you about 
this. So in May it was eleven point?
    Commissioner Hall. 11.4.
    Senator Klobuchar. 11.4. So that is a significant change--
--
    Commissioner Hall. Yes.
    Senator Klobuchar [continuing]. To go from 11.4 to 9.8. Do 
you have any reason to know why that happened?
    Commissioner Hall. I do not. I do not. We might be able to 
look at it a little bit and see if we can see a pattern there.
    Senator Klobuchar. Maybe it is because of my questions 
about this every month and all the CSPAN viewers seeing that, 
and then hiring Gulf War Veterans and people who are serving.
    I mean, I have just found it so disturbing that people have 
done that. And then they serve and they come back and they do 
not have a job. So we are going to continue pushing on that 
issue. But we have seen some improvement.
    So it is still above the national unemployment rate of 9.4 
percent in that it is at 9.8 percent, but that gap has been 
decreased? Is that right?
    Commissioner Hall. Yes. Although I just will caution that 
it is a fairly small sample of Veterans. So the variability in 
that number can be fairly high.
    Senator Klobuchar. All right.
    Commissioner Hall. So it can go up and down for no real 
reason other than statistical.
    Senator Klobuchar. Thank you. We have also discussed the 
importance of education and its impact on unemployment. What is 
the unemployment rate, Commissioner Hall, for college 
graduates, and the high school graduates, and those that have 
not completed high school?
    Commissioner Hall. For college graduates the unemployment 
rate is 4.7 percent. For people with high school degree but no 
college, the unemployment rate is 9.4 percent.
    Senator Klobuchar. So they are exactly at the national 
average, then?
    Commissioner Hall. Yes. And they are double. The 
unemployment rate is double that of people with college 
degrees.
    Senator Klobuchar. Okay, so what is the unemployment rate 
for people who have not finished high school?
    Commissioner Hall. 15.4 percent.
    Senator Klobuchar. So you can see why the President has 
made it a priority to try to get people to not just finish high 
school but to finish some, at least a year of college. So we go 
from 4.7 percent for college degrees to 9.4 percent for high 
school graduates to 15.4 percent for those who have not 
finished high school.
    How has that changed the trends? What are the trends in 
this area?
    Commissioner Hall. Well, the recent trend--the recent 
months' trend has been pretty much like the overall rate. They 
have been fairly flat. All these unemployment rates have been 
fairly flat over the last month or two.
    But the growth since the start of the recession--for 
example, those without a high school degree, their unemployment 
rate has gone from 7.5 to 15.4. So they have had a fairly 
dramatic increase in the unemployment rate.
    Senator Klobuchar. And that is from what time?
    Commissioner Hall. From the start of the recession.
    Senator Klobuchar. So they have seen a bigger hit, 
percentagewise, the people who have not finished high school, 
than say the other groups. Even though the other groups started 
lower, they have not seen as big of a spike in unemployment?
    Commissioner Hall. Yes, on a percentage point basis.
    Senator Klobuchar. Okay. Just to conclude here with my 
round here, some of my colleagues were asking about the 
Stimulus Package. I think Representative Cummings was. And the 
effects of this and where you can see it.
    Now we know about 25 percent of the Stimulus Package money 
is out, the investment piece of it, and so obviously you will 
see more effects of that as we go forward. But I think the 
other piece that people do not always think about is that the 
Stimulus--the Recovery Act was one-third of these investments, 
but the other one-third was shoring up state budgets and 
unemployment and things we have talked about today--but the 
other third were these tax cuts. That a third of the Stimulus 
Package was actually tax cuts, many of them going to the middle 
class in tax credits.
    So what I think is interesting is that you can see the 
effects of that more immediately in the home buying rates I 
talked about in Minnesota. And again I am basing this on our 
Minnesota stats, but also what the realtors have told me in 
terms of what they are seeing, and the tax credits with the 
Cash for Clunkers program.
    So do you see those things more immediately ripple through 
the unemployment rates than you do with some of the spending, 
just because it takes longer to get that money out there?
    Commissioner Hall. Well, yes, that would be my 
anticipation. My notion is that the payout rate is an important 
thing on these things. So when they occur is important.
    Senator Klobuchar. Okay. All right. Thank you very much, 
Commissioner Hall.
    Chair Maloney. Thank you.
    Commissioner Hall, how have women fared in this economic 
downturn? And in what industries have women lost the most jobs 
during this recession?
    Commissioner Hall. Well women have lost about 25 percent of 
the jobs during this recession. So that means men are losing 
jobs 3-to-1 compared with women. But that is not--in a sense 
that is not normal. In the last recession women lost a lot of 
jobs, but prior to the last recession women often would not 
lose jobs at all during recessions.
    So one of the things that has happened is, while men are 
bearing the bigger brunt of the job loss, women are 
participating more in the job loss than in the past. So women 
have lost--at this point women have lost about 1.7 million jobs 
so far.
    Senator Klobuchar. Well certainly the equality in job loss 
is not something I have been working for, but are women moving 
towards equality in job loss? Are they gaining in job loss 
during the recession? Could you elaborate a little more?
    Commissioner Hall. Yes. My guess is that the women's 
participation rates in a number of industries has gone up. For 
example, in construction and manufacturing they are under-
represented. So when those industries are hit by a recession, 
women do not participate so much in the job loss.
    But women's representation in other industries can be 
fairly high, so they participate in the job loss like men.
    Chair Maloney. Could you comment on the trends of 
unemployment for minorities--specifically, African Americans 
and Latinos? Have they leveled off? Or is it still rising at a 
fast clip? What is happening there? And in what industry are 
Latinos and African Americans losing the most jobs?
    Commissioner Hall. Lately the unemployment rate rise has 
flattened out the last couple of months, pretty much like the 
national numbers for minorities.
    I think for the most part the changes in the unemployment 
rate, while they have mirrored the overall unemployment rate, 
they have just mirrored it to a bigger degree. So when the 
overall unemployment rate goes up, it goes up by more for 
minorities.
    So the trend is pretty much I think the same.
    Chair Maloney. Could you comment on the difference between 
men and women--African American women and African American men; 
and Latino women and Latino men; and differences between 
African Americans and Latinos in terms of unemployment?
    Commissioner Hall. All right, I can talk generally.
    The women's unemployment rate is 8.1 percent----
    Chair Maloney. For what?
    Commissioner Hall [continuing]. I'm sorry?
    Chair Maloney. Women?
    Commissioner Hall. Just total women.
    Chair Maloney. Total women? Um-hmm.
    Commissioner Hall. 8.1 percent. For men it is 10.5 percent, 
to put that in perspective. For African Americans the 
unemployment rate is 14.5 percent. For Female Head of 
Household, African American women, the unemployment rate is 
17.8 percent.
    Chair Maloney. So there are more unemployed?
    Commissioner Hall. Yes.
    Chair Maloney. What about Latino women?
    Commissioner Hall. Female Head of Households, Hispanic, the 
unemployment rate is 12.8 percent. And that is actually fairly 
much in line with the overall unemployment rate, Latino 
unemployment rate of 12.3 percent.
    Chair Maloney. So Latino women are 12.8 percent, and men 
are what?
    Commissioner Hall. Well overall it is 12.3 percent. So men 
are probably around 12 percent.
    Chair Maloney. Okay. And do you see this leveling off, or 
rising? Or what is the trend with minority unemployment?
    Commissioner Hall. Well the recession trend I think lately 
it has been leveling off. And I think typically what happens is 
when things rise, they rise by more for the minorities. And 
when things decrease, they decrease by more for minorities.
    Chair Maloney. And again, what industries are Latinos and 
African Americans losing the most jobs in? Do you have a sense 
of where that job loss is?
    Commissioner Hall. The one pattern that jumps out I guess 
is Hispanic representation in construction is fairly high. 
There is over-representation there. Construction has been hard 
hit by this recession. So the Hispanic unemployment rate has 
been--has gone up quite a bit.
    There is a less simple pattern for African Americans, 
especially in terms of industry representation.
    Chair Maloney. And why are the numbers telling us that 
women in the African American and Hispanic communities are more 
likely to lose their jobs or be unemployed than men?
    Commissioner Hall. I don't know. I mean, that is kind of a 
big question and it is a kind of a research sort of question. I 
would say certainly industry representation has an impact. That 
probably explains some of it, but I do not know what else 
explains it.
    Chair Maloney. Thank you, very much.
    Mr. Cummings for five minutes.
    Representative Cummings. Thank you very much, Madam Chair.
    I want to go back to Ms. Klobuchar when she was asking the 
questions about the military and this whole issue of how much 
education a person has.
    I had a town hall meeting the other night, Mr. Hall--this 
is like a commercial, by the way--and I was meeting with some 
Veterans. And they did not know about the new G.I. Bill which 
will allow them to get their tuition paid, in some instances 
their housing, and fees at colleges.
    And so I just wanted to let folks know that it appears from 
what you've said, from the stats, that the more education one 
has the better their chances of being unemployed, even during 
these times. Is that right?
    Commissioner Hall. Yes.
    Representative Cummings. So I am just letting the Veterans 
know who might be watching this that they ought to find out 
about this new G.I. Bill because it is something that went into 
effect on August 1st. And I want to thank Ms. Klobuchar for 
even bringing up that issue of education and the military, 
because I think it is one thing to have these opportunities; it 
is another thing to know about them; and it is another thing to 
take advantage of them.
    Let's talk about health care for a moment. It seems like 
health care stays pretty steady, doesn't it? In other words, it 
does not seem to--it seems to always--it does not seem to go 
down very much, so it does not seem to suffer as much as far as 
unemployment. Is that right?
    Commissioner Hall. That is right.
    Representative Cummings. Why do you think that is? Do you 
have any idea why you think that might be?
    Commissioner Hall. I don't. I mean, there is some evidence 
that early in a recession there are shortages in certain 
occupations within health care, that early in a recession 
employment goes up because the shortages go away because more 
people are looking for work and they are willing to move over 
into health care.
    Beyond that, I don't know.
    Representative Cummings. You know, on another note, 
yesterday during our press conference with regard to women and 
health care--and I think Ms. Maloney may have spoken about it a 
little bit earlier--we learned something that was very 
interesting. That is, that you have got a situation where a lot 
of women during the Baby Boomer age were older than--I mean, 
the men were older than the women they married.
    And what is happening now is that, as they go into 
Medicare, with their wives being younger and if the wife was 
dependent on the husband for their insurance, when he goes into 
Medicare she does not have any insurance.
    And so I was just wondering, do you know the unemployment 
rate for women--for older women? Let's say--and I didn't say 
``old''; I said ``older''---- [Laughter.]
    You may even have a definition for ``older.'' I want to be 
very careful.
    Commissioner Hall. I will pick out our oldest group.
    Representative Cummings. Okay.
    Commissioner Hall. For 55 and older the unemployment rate 
for women is 7.1 percent.
    Representative Cummings. Okay, and is that--had we seen any 
kind of trend with regard to that? I mean, just like we have 
seen different trends that have gone up, down, staying pretty 
much the same over the last few years, or what? I mean, what do 
you see? I meant several months.
    Commissioner Hall. Actually that has grown a bit lately. 
Last month it was at 6.4 percent, and then prior to that it was 
5.8 percent. So that one does not seem to have, have not seemed 
to have leveled off the last few months.
    One of the things that is a little tricky, though, when you 
get anybody in the 55-and-over range is whether they are in the 
labor force or not. Because they can--someone can lose a job 
and just stop looking if they are 55-and-over and go ahead and 
take retirement. So it may under-estimate the issue.
    Representative Cummings. So there is no way that you would 
have that breakdown? In other words, a person who says, you 
know what, I retire. You would not have that kind of 
information in these stats?
    Commissioner Hall. No, we do not collect that.
    Representative Cummings. So there is one other thing that I 
am concerned about, and that is the states, these states that 
are running out of money.
    Do we see any impact with regard to those unemployment 
rates? Because almost every state is going through a lot of 
problems right now, and I am just wondering what do we see 
there?
    Commissioner Hall. The recent trend in state government 
employment the last few months has actually--they are starting 
to lose jobs. For a while there state governments were hovering 
at around no-job-growth/no-job-loss. But for example the last 
three months we have averaged, state governments have averaged 
declining 6000 jobs a month.
    So it seems like the employment at the state government 
level has worsened a bit.
    Representative Cummings. I see my time has run out. Thank 
you.
    Chair Maloney. Senator Klobuchar.
    Senator Klobuchar. Thank you, Chairman Maloney.
    Commissioner Hall, I was just reading the report here. We 
have a--the stocks gained--this is as of two minutes ago. 
Stocks gained early Friday after the government--that is you, 
Commissioner Hall--reported a surprise drop in the unemployment 
rate, and a smaller number of job cuts than expected, raising 
hopes that the economy is stabilizing. The Dow Jones Industrial 
Average gained now 75 points. The S&P 500 rose now 7.3. And the 
Nasdaq Composite added 14 points.
    So my question of you is: Is this a little bit too 
exuberant over this news? What do you see in the long haul as 
we go forward?
    Commissioner Hall. Well first of all, let me say I have 
been a very bad predictor of the Stock Market just generally.
    Senator Klobuchar. Now that may affect these numbers that 
you said that, Commissioner Hall. [Laughter.]
    Commissioner Hall. And I am even a bad predictor of how the 
Stock Market is going to react to our data. It is hard for me 
to see that because so much of it I think winds up being what 
were people expecting. And that is hard to know.
    As to whether, you know, I--I don't know. I have no way of 
knowing.
    Senator Klobuchar. Can you compare this to other 
recessions? You and I have talked before about this one is so 
much longer than some of these temporary recessions we have 
seen before, and what you think of these signs of recovery 
compared to other historical recessions?
    Commissioner Hall. Yeah, I mean we are still having 
significant job loss, but we are not having job loss at sort of 
historic levels. You know, for a few months there we were 
having job loss at nearly historic levels; you know, over a 
half a million jobs lost per month.
    So, you know, we have sort of settled in to maybe what is 
a--I don't want to say ``more normal''--every recession is 
different--but maybe a more normal recession level of job loss. 
So we have still got improvement to go. But like I say, the 
trend is encouraging.
    Senator Klobuchar. I want to follow up a little on the 
Chairwoman's questions about health care, and women, and 
unemployment. And clearly they have done some ground--and she 
has done some ground-breaking work here on health care with 
women and children and how a lack of health care has an 
inordinate impact on them. But I was getting back to these 
unemployment rates.
    The First Lady of California was out here a week or so ago 
talking about at some point here more women are going to be 
employed than men in the workforce. And maybe you do not have 
those numbers are your fingertips because it is not 
unemployment numbers, it is employment numbers. Is that 
possible? And maybe it was just in certain quintals.
    Commissioner Hall. Actually I do have that data.
    Senator Klobuchar. Okay.
    Commissioner Hall. Right now, men have been losing jobs 3 
to 1 versus women, and there was been a large job loss. So part 
of what that means is the women's share of payroll jobs has 
been growing pretty steadily.
    It is now up to 49.8 percent of jobs are now held by women.
    Senator Klobuchar. Right.
    Commissioner Hall. Which means that 435,000 more men are 
currently employed than women in payroll jobs.
    Senator Klobuchar. Is that why one of my letters, that I 
will not read to you, referred to this as the ``man-session'' 
instead of recession? This letter we do not want to read here.
    But--So you have, you have, while women have taken an 
inordinate amount--I think I agree with these statistics they 
found because they tend to be there's more women with kids and 
with the lack of health care suffer more because of it--we 
still are seeing growing employment rates of women. And you see 
more men losing their jobs out of this? Is that what you are 
saying?
    Commissioner Hall. Yes. Yes.
    Senator Klobuchar. All right, and why is that, do you 
think?
    Commissioner Hall. You know, it probably has got to start 
with representation in particular industries that are hardest 
hit. You know, because construction and manufacturing are 
particularly hard hit this recession, and men are over-
represented there.
    Senator Klobuchar. And so that is where we have a lot of 
the Stimulus money going, of which only a quarter of that money 
has hit yet. So presumably that could help with that particular 
sector? Is that right?
    Commissioner Hall. Potentially.
    Senator Klobuchar. I could have it come from a question 
from one of my constituents and it would be easier.
    The last thing I wanted to ask about was the importance of 
discouraged workers. You talked about that in your opening a 
little bit. These are people who want to work full time but can 
only find part-time work, or people who want to work but have 
not been looking lately, for whatever reason. Are both of those 
categories in the Discouraged Workers group? Or is it just 
people that have not been--have sort of given up looking for 
employment?
    Commissioner Hall. Well we have something called marginally 
attached, which are people who want to work and have looked 
within the past year but have not looked lately.
    Senator Klobuchar. And how are their numbers going?
    Commissioner Hall. That number has gone up quite a bit. We 
are now something like 2.3 million people who are marginally 
attached. So these people are not counted in the unemployment 
rate.
    Senator Klobuchar. Right. And have their numbers gone up 
each month? Like what was their number last month? What was 
their percentage increase from the month before?
    Commissioner Hall. That is tough for us because this number 
is not seasonally adjusted.
    Senator Klobuchar. Oh, I see.
    Commissioner Hall. So there are seasonal things that change 
it.
    Senator Klobuchar. Because I am just wondering if maybe a 
number of these people have become marginally attached. It 
seems like it is sort of a cold description of them, but they 
have tried to work--they have tried to look for employment; 
they have given up, and they are out of your unemployment 
numbers? Is that right?
    Commissioner Hall. That's right. Although we do catch them. 
We do have a very broad measure of labor utilization that 
includes--underutilization--that includes them.
    Senator Klobuchar. Okay. Very good. Well I want to thank 
you. I am going to have to head out to do some other things, 
but I again just wanted to remind people of what people are 
still--despite this some good news here this month--people 
still continue to suffer.
    I just want to end with a letter we just got this week from 
a guy in Minnesota. He says:
    My wife lost her job last August as her company shut her 
building down and moved all the jobs to Boston. She was the 
major breadwinner in our house and has not been able to find a 
job since. She has applied numerous places but can't find 
anyone to hire her. We got a statement in the mail today saying 
that our house value has dropped from $194,700 to $174,000, yet 
we still owe over $190,000 on the house. We have a 14-month-old 
daughter and soon unemployment will end and we are really 
scared about what's going to happen.
    So I continued to be reminded that, while we have seen some 
stabilization, and there clearly are glimmers of hope in this, 
and people have been incredibly determined in my State to start 
businesses and keep going, we still have a lot of people in our 
country that are hurting.
    Thank you very much, Commissioner Hall.
    Chair Maloney. Thank you, Senator.
    Some of my colleagues have talked about the report that the 
Joint Economic Committee released yesterday showing that 1.4 
million women have lost their health insurance during this 
economic downturn due to losing their job, or their spouse 
losing his job.
    We know that employers are looking at ways to cut costs, 
and many of them are eliminating health insurance coverage. I 
would like to know, Commissioner, do you have any idea on the 
loss of employer-based health coverage due to budget-cutting 
during this recession?
    Commissioner Hall. We don't collect direct data on that 
very often. There is an Annual Benefits' Data release once a 
year that does talk about that. Right now the most recent data 
is I think for 2007. We are not going to get 2008 until this 
fall.
    Chair Maloney. When will you have this?
    Commissioner Hall. It is actually a report that Census puts 
out in the fall. I think it is September or October, where they 
talk about health care coverage.
    Chair Maloney. Okay.
    Commissioner Hall. We do have data on benefit availability 
by industry. That does not really tell you how many people have 
lost their health insurance, et cetera.
    Chair Maloney. But can it tell you if certain types of 
employees are more vulnerable than others because they are 
employed in certain businesses that are losing jobs. Or, for 
example, are part-time workers and lower wage workers at higher 
risk due to the cost-saving measures that some of their 
employers may be taking to cut health insurance coverage at 
this time.
    Commissioner Hall. Yes. Our detailed benefits data is going 
to come out fairly shortly for March, but in general I can tell 
you that right now 85 percent of full-time employees have 
access to health care, and only 24 percent of part-time 
employees have access.
    So one of the things that you obviously see during a 
recession is a shift from full-time to part-time work, so you 
have health care issues there. And full-time employment, so far 
this recession has fallen by nearly 9 million people. So this 
is pretty significant, when people obviously go to either no 
coverage or part-time work which only has 24 percent coverage.
    Chair Maloney. And many employers have told us that the 
rising cost of health insurance is simply unsustainable. Do you 
believe that the high health insurance costs are contributing 
to the slack labor market?
    Commissioner Hall. I would imagine they are. You know, for 
me the most obvious impact is on wage growth.
    Chair Maloney. Do you have any data on how that might 
impact on wage growth?
    Commissioner Hall. Sure. There are some studies--rather 
than data, there are some studies that have looked at the 
likely impact on wage growth, and are pretty consistent I think 
in sort of showing that when health care costs go up wage 
growth slows. It sort of takes away from wage growth.
    We do collect lots of data on benefits, but we don't do 
that much on what's causing benefit growth to decline.
    Chair Maloney. Well could you give to the Committee the 
reports that have come out on that particular area so we could 
study the impact on wage growth and the high cost of employer-
based insurance?
    Commissioner Hall. Sure.
    Chair Maloney. I would like to get back to one of the 
questions from my colleague, Mr. Cummings. Is there a positive 
feedback effect in labor markets? Is there a positive feedback 
in labor markets because of the moderation in decline in 
unemployment? And does that increase consumer confidence, and 
therefore lead to more sales, and spur businesses to hire more 
workers?
    What is the positive feedback? Do you monitor any of this 
in the labor market?
    Commissioner Hall. It is sort of what you always see. You 
know, when the economy turns bad, consumers start to lose 
confidence and stop spending. Then the lack of spending means 
people lose jobs. And people who lose jobs stop spending.
    So what we are talking about now hopefully is the reverse: 
if spending starts to increase, job loss will decline. Job-loss 
declines will increase confidence and you will have this 
feedback.
    Chair Maloney. My time has expired. Mr. Cummings.
    Representative Cummings. Thank you, Madam Chairwoman.
    Mr. Hall, first of all I want to thank you for your 
testimony. Just one question, and then a comment. We know that 
during a recession more people will turn to higher education to 
get graduate degrees and what have you.
    Does this show up in any of your data in any way? For 
example, young college graduates who could not find work so 
they decide to stay in school? Would you have that data, any 
kind of data like that?
    Mr. Rones. Right now, the share of high school graduates 
who go on to college in the fall is I think at 69 percent, 
which is about at the highest ever. So that is partly--the 
trend has been rising, that as more and more people have been 
going to college, partly as a reaction to the statistics we've 
talked about, about how much more successful people who go to 
college are in terms of higher earnings, lower unemployment--
but also it is probably the case when the job market is this 
bad there are people who otherwise might have worked who go on 
to college, or some other type of formal training because they 
are not really doing anything. But the participation in 
college, both two and four-year colleges, is at record highs 
now.
    Representative Cummings. I see. And that is all the more 
reason why the GI Bill that I talked about a little bit earlier 
is so important, because that is another thing that--another 
thing that people do not seem to realize, that we have a lot of 
colleges--I sit on the board of Morgan State University, HBCU 
in Baltimore, and what we have found is there are a lot of 
students, because of the economic situation in the country 
today that do not have the money to go to school. They do not 
have the money.
    So when you have a GI Bill which is going to pay tuition 
fees and board, then those schools can then appeal to those GIs 
to come back to school; then those are people that come walking 
in the door with the tuition check and board check right in 
their hand.
    And of course that keeps your--in Maryland what we have 
found is that we had our, just about all of our schools now 
have had to cut back with regard to employment of our 
professors and workers because of the fact that the money is 
beginning to simply dry up. And then of course with Endowment 
problems because of the recession, that does not help matters.
    Did you have a comment, Mr. Hall? You look like you need to 
say something?
    Commissioner Hall. I am just agreeing with you.
    Representative Cummings. Oh, thank you. Thank you, very 
much.
    You know, just in summary, because I have got to go myself, 
but I think that there is a glimmer of hope here. And I think 
that what we are seeing is a lot of things beginning to, slowly 
but surely, work together. And this is a trend, this downward 
trend I think they said, was--we have not seen that since 2008? 
Is that right? This downward trend, Mr. Hall, with regard to 
the unemployment?
    Commissioner Hall. Oh, right. Right.
    Representative Cummings. Is that right?
    Commissioner Hall. Yes. Although I would say it is 
flattening, but we have not seen a flat unemployment rate since 
early 2008.
    Representative Cummings. Early 2008. So it has been awhile. 
And I guess what I'm trying to say, you know it is so easy for 
us to look at the glass half empty as opposed to half full. And 
I think that when it comes to these kinds of issues, we have to 
be careful that we are not overly optimistic. But at the same 
time, when we are talking about consumer confidence, when we 
are talking about giving people hope, and we are praying that 
they will go out there and, you know, spend--if they can, we 
want them to save--but also spend because that keeps the 
economy going, I think it is very important that we look at 
these things and say: You know what? We are going in the right 
direction. We are definitely not seeming like we're falling 
backwards; we are going forward.
    And although we may be going forward very slowly, we may be 
inching along, it reminds me of an insect I saw in my house the 
other day. It's a little, tiny insect and when I looked one 
time it was on one wall, and the next time it was over there on 
the other wall. In some kind of way those little--in some kind 
of way it got all the way around to the other wall.
    My point is that we may take small steps but, as they say, 
a journey of a thousand miles begins with the first step. And I 
want to make sure that, you know, that we don't just poo-poo 
what we have been able to accomplish thus far. Because I think 
we in leadership, if we are not careful, can help people not 
feel the confidence, not feel the optimism that perhaps they 
might want to at least begin thinking about.
    So with that, Mr. Hall, I want to thank you, and I want to 
thank both of you gentlemen, Mr. Rones and Mr. Horrigan, for 
your--and your department. We rarely thank--we thank all the 
people that back you all up, but we thank you also. Have a good 
month.
    Commissioner Hall. Thank you.
    Chair Maloney. Thank you very much, Mr. Cummings, for your 
participation today and your insightful comments.
    Commissioner Hall, in my home State of New York the 
unemployment rate was 8.7 percent in June, a jump of 3.4 
percent points from last June. And in New York City it jumped 
to 9.5 percent in June. And are these changes similar to the 
changes in the national unemployment rate?
    Commissioner Hall. Yes, they are.
    Chair Maloney. On the national level we have seen a 
deceleration in the pace of job losses in recent months. How 
does that compare to the payrolls of New York State and the 
payrolls of New York City?
    Commissioner Hall. I think, especially the State, for a 
number of years now it has followed very closely with the 
national numbers. I think New York State has a very diverse 
economy like the U.S. economy. So the pattern has been very 
similar.
    Chair Maloney. And what have been the largest declines in 
New York State?
    Commissioner Hall. In terms of what industries?
    Chair Maloney. Job loss.
    Commissioner Hall. I should have that, but I don't have it 
in front of me; I'm sorry.
    Chair Maloney. Would you get it to me later?
    Commissioner Hall. Yeah, I can. [The information was not 
availabe at the time of publication.]
    Chair Maloney. And how has New York State fared, compared 
to the nation as a whole, during recessions?
    Commissioner Hall. Again, lately, it's been fairly close to 
the national numbers. The last couple of recessions have sort 
of jobless recoveries, where the delay in the labor market 
took--created a problem, where the labor market took a while to 
recover.
    I think that's been pretty much the same for New York, so, 
you know----
    Chair Maloney. And do recessions typically last longer at 
the state level? You could use the example of New York or any 
state. Are recessions longer at the state level, would you say?
    Commissioner Hall [continuing]. You know, it depends upon 
the state. Some states, especially smaller states, can look 
rather different than the national numbers, over time. In fact, 
I would say that during much of the 2000s, there's a state or 
two that probably has been in a recession for quite awhile in 
this country.
    Chair Maloney. What about New York?
    Commissioner Hall. But New York has not; New York has 
followed pretty closely with the national numbers.
    Chair Maloney. Could you give us some insight on the effect 
of trade on jobs? There's tremendous concern about the 
outsourcing of jobs to other countries, and other reports that 
say trade builds jobs in our country.
    Are you tracking the connection between trade and the job 
loss or job gain in certain industries? Do you have any reports 
on that?
    Commissioner Hall. We don't, and it turns out that that's a 
rather difficult thing to do, because at the factory level, 
once something's produced, quite often that establishment 
doesn't really know where it goes.
    And in respect to imports, for example, as well, when a 
product hits the U.S. shores at Customs, we actually lose track 
of where it goes, so we don't actually know how it impacts or 
how it's used inside the United States. So it's very difficult 
to connect job growth and loss with trade, specifically.
    There are some studies that will do that. I know the 
Department of Commerce has done a couple of studies on that.
    Chair Maloney. Well, we would like to see those studies, 
and I would like for you and your staff to look into how we can 
track that and how we can see whether jobs grow or are lost. I 
am told that one financial company just built a financial 
services item in another country, and yet they were saying it 
is creating over 500 jobs in the U.S., due to the support 
services and the data collection.
    The fact is the world is flat and we are in a global 
economy. I believe we have to move to the 21st Century and 
start tracking how trade affects job growth or loss, and, 
specifically, you can track if a plant closes; you lose those 
jobs, that's very clear. I would think that with the changing 
world economy, you would look into this. Do you think you'll be 
able to do that?
    Commissioner Hall. I'll think about it and see what we can 
do. I really do think that this is an issue. The statistical 
system doesn't do enough to collect data related to trade, to 
get the issues like offshoreing, I mean, and that sort of 
thing.
    I'll take a look and see what we've got. It's going to be--
it would be difficult.
    Chair Maloney. Often temporary help is a leading indicator 
of an employer's willingness to hire. How many jobs have been 
lost in the temporary help industry since the recession began? 
Do you see any indications that job losses in the temporary 
help industry are slowing and when was the last time that the 
temporary help industry saw this level of job losses?
    Commissioner Hall. So, this recession so far, temporary 
help services has lost 844,000 jobs, so it's pretty 
significant. There has been substantial improvement in the job 
loss. This last month, temporary help services lost just 10,000 
jobs, compared to 844,000 since the recession began.
    We've never seen job loss like this before, but the 
temporary help industry has changed quite a bit. It is now 
something on the order of nearly 1.7 million people who are in 
temporary help now. In 2006 it was at the peak. We've dropped 
from that, but just as recently as 1990, it was a one-million 
person industry, so it's really grown quite a lot and it's 
changed a lot.
    That's a long way to say it's never--we've never seen a 
drop like this before, but, then again, temporary help has 
never been as big as it is right now.
    Chair Maloney. With the financial indicators indicating 
we're heading in the right direction, do you think we have seen 
the worst in this whatever you want to call it? Recession? 
Depression? Or compression?
    I think I'd call it the Great Compression, with the job 
losses and the shrinking of leverage.
    Commissioner Hall. Certainly the trend is encouraging. I 
don't want to sort of predict, because it's like anything else, 
things can change going forward, but the trend right now is 
encouraging.
    Chair Maloney. Well, let's end with some positive news: The 
trend is encouraging. Thank you for your testimony and your 
hard work. This hearing is adjourned.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]

                       SUBMISSIONS FOR THE RECORD

        Prepared Statement of Representative Carolyn B. Maloney

    Evidence that the stimulus bill is taking hold is starting to 
emerge.
    The economy dramatically improved in the 2nd quarter of this year, 
and the pace of job loss has moderated significantly in recent months.
    After averaging close to 700,000 jobs lost each month for the first 
quarter of 2009, job losses have been half as large over the past three 
months and the unemployment rate has been stable for the last two 
months.
    Clearly, the trend is toward recovery.
    I am optimistic that more Americans will be heading back to work as 
more stimulus projects get underway.
    While we welcome these signs of improvement, this morning's 
employment report reminds us of the high toll that the recession has 
had on millions of working Americans.
    This recession, which began in December 2007, is now the longest 
and deepest in the post-world War II period. Although the economy is 
predicted to expand later this year, the duration of this recession has 
led to long spells of unemployment for some workers.
    With six unemployed workers for each job opening, those out of work 
are finding it increasingly difficult to secure a job.
    More than one-third of the unemployed, a staggering 5 million 
Americans, have been without a job for at least 6 months.
    It is the highest on record, in both percent and the sheer number. 
Over 2.3 million workers have been unemployed for a year or longer.
    The National Employment Law Project estimates that, by the end of 
September, more than 500,000 workers who lost their jobs through no 
fault of their own, will exhaust their federally funded unemployment 
benefits before finding a job.
    By the end of the year, the number could grow to 1.5 million.
    For many, those weekly benefit checks are the ever-so-thin cushion 
that allows them to keep up with their utility bills, stay current on 
their credit card bills, and meet basic necessities.
    Congress and the President worked swiftly to expand and extend the 
unemployment insurance program for the thousands of workers losing 
their jobs each month.
    We funded up to 20 additional weeks of benefits at the state level 
through the Extended Benefits program.
    The Emergency Unemployment Compensation program also provided up to 
an additional 20 weeks of federally-funded benefits for workers in all 
states, and an additional 13 weeks for laid off workers in states with 
exceptionally high rates of unemployment.
    Many jobless Americans are receiving an additional $100 each month 
due to provisions in the Recovery Act.
    But, for many of these unemployed workers, it is not just the 
income that they have lost. For millions of jobless Americans and their 
families, health insurance benefits have evaporated or may stop.
    The Joint Economic Committee released a report yesterday estimating 
that 1.4 million women and 2.7 million men have lost their employment-
based health insurance because of job losses during the recession.
    Today's jobs report makes it clear--we are making progress, but it 
will be a long road to recovery.
    By extending unemployment benefits, we will give out-of-work 
Americans across the country some peace of mind as they continue to 
search for work.
    By passing health care reform, millions of uninsured Americans will 
have access to affordable health insurance benefits, regardless of 
their employment status.
    I look forward to working with my colleagues in the House and 
Senate to act swiftly on behalf of the millions of unemployed Americans 
across the country.

                               __________
    Prepared Statement of Senator Sam Brownback, Ranking Republican

    Thank you Chairwoman Maloney for arranging today's hearing and 
thank you Commissioner Hall for testifying today.
    Unfortunately, today's employment report on labor market conditions 
in July brings more bad news: employers shed 247,000 payroll jobs and 
the unemployment rate stands at 9.4%. While the pace of job loss has 
receded, and the unemployment rate has edged down, labor market 
conditions remain weak and American families are hurting. In total, we 
have lost 6.7 million payroll jobs since the beginning of the 
recession. Behind these numbers is a great deal of dislocation, pain, 
and suffering in American families.
    I am concerned about the way that the Federal government is 
addressing the economic downturn and, in particular, the lack the lack 
of focus on jobs and the growing ranks of unemployed workers and 
families losing their homes to foreclosure. Earlier this year, Congress 
and the President set up a $787 billion so-called ``stimulus'' plan, 
filled with hundreds of billions of government spending that was to be 
distributed in a timely, targeted, and temporary manner. Yet, the money 
has not gone out the door in the timely manner necessary to help our 
economy now. Rather, only a little over 10% of the $787 billion in 
stimulus has been spent, and the remainder will be slowly spent over 
the coming months and years, when our economy will presumably already 
be expanding.
    Additionally, the stimulus was not adequately targeted towards job 
creation and foreclosure prevention which are weighing heavily on the 
economy. Instead of preventing job losses and foreclosures, the bulk of 
stimulus money is being used to fund long-term investment projects, 
some of which will not be ``shovel ready'' for years. This is not 
temporary stimulus, this is long-term government spending. Thus far, 
the stimulus has failed on all three fronts: funds have not been spent 
in a timely manner; spending has not been targeted to employment and 
foreclosure prevention; and the vast array of long-term infrastructure 
projects are in no way temporary.
    During the depths of the recession, Congress has been debating a 
health care overhaul that does nothing to reduce health care price and 
cost inflation, but seems only to promise massive increases in 
government deficits and debt and increases in taxes on businesses and 
American families. Congress has also been debating ``cap and trade'' 
schemes to reduce carbon emissions, which will surely increase energy 
costs for businesses and American families. While health care and 
carbon emissions are serious issues to consider, what we have done to 
date seems mostly to have generated increased uncertainty, in the midst 
of a deep recession, for businesses and families about their future 
health care costs, energy costs, and taxes. Raising the specter of 
trillions of dollars of increased government spending on health care 
and an increase in energy costs and higher future taxes in the midst of 
our deep recession seems to be anything but stimulative.
    If you believe in providing debt-financed stimulus to the economy, 
I believe it should at least come on line and produce effects when it 
is needed, which is now. To the many Americans who are ``paycheck 
ready'' today, what good, in terms of stimulus, is a road that will not 
be ``shovel ready'' and built for years to come? There are unemployed 
workers who need relief now. There are unemployed workers who are 
losing their homes to foreclosure now. There are employers, struggling 
in the face of reduced demand for their products, who find now that 
they simply cannot make it economically with their existing workforce, 
and they are forced to lay more people off. And as the ranks of the 
unemployed grow, more and more families are finding it difficult or 
impossible to hang on to their homes and they are suffering through 
foreclosure actions now. These Americans do not need to have a road 
built in 2013, they need help now.
    I voted against the stimulus because it simply contained too many 
deficit-financed, long-term spending projects that are difficult to 
think of as economic stimulus. The stimulus provides only minor tax 
relief. Yet cutting taxes takes very little time, and time is of the 
essence in trying to stimulate the economy. Lack of tax relief in the 
stimulus was and is disappointing. Some of the long-term infrastructure 
spending in the massive stimulus could very likely be sound investments 
for the American economy. However, such investments should be made 
according to careful cost-benefit analysis on a project-by-project 
basis. That is not what was done in formulating the stimulus. Rather, 
there was a rush to spend and a rush to run up deficits and debts even 
further. For the sake of American workers and their families facing job 
loss today, or who are unemployed, or who are losing their houses to 
foreclosure, we should redirect stimulus efforts today.
    My concern today is with continued job losses, growth in the number 
of American workers who are unemployed, and growth in the number of 
American families who are losing their homes to foreclosure. We seem to 
be moving in the wrong direction by adding uncertainty to decisions 
that American families and businesses need to make as they plan for the 
future. The direction we are taking threatens to lengthen the recession 
and work against a recovery in the labor market. The direction we are 
taking has been one of adding to uncertainty--uncertainty about future 
health care costs by pushing for bigger and more expensive government 
intervention in the name of reform; uncertainty about future carbon 
costs inherent in a cap and trade emission scheme that threatens 
American jobs; and uncertainty about future taxes and national debt.
    I look forward to the testimony of Commissioner Hall.

                               __________

    Prepared Statement of Representative Kevin Brady, Senior House 
                               Republican

    I am pleased to join in welcoming Commissioner Hall before the 
Committee this morning.
    It is welcome news that the unemployment rate in July did not rise 
further. However, as job losses appear to be slowing, the loss of an 
additional 247,000 nonfarm payroll jobs in July is somber news. The 
unemployment rate remains far above projections by top Administration 
economists that the rate would peak at 8 percent if the stimulus were 
adopted. The current rate of 9.4 percent reflects the serious facts 
that 14.5 million Americans are unemployed and the number of long term 
unemployed rose by 584,000 to a total of 5 million people.
    There are signs that the recession is bottoming out and that 
production may increase to replenish inventories, but the economy 
remains in dire condition. Mortgage delinquencies and home foreclosures 
are rising fueled by high unemployment. The prospects for sustained 
economic growth are far from clear. The ``stimulus'' adds to the 
deficit while employment and GDP will be lower and the debt-to-GDP 
ratio higher than the Administration projected, and the far-off claim 
that stimulus policies are creating a significant amount of jobs is 
greatly out of touch.
    Under Administration policies, excessive budget deficits, a 
spiraling federal debt, tax increases, and the prospect of inflation 
are putting the long-term economic recovery at risk. The increased 
weight of government on a weak economy only raises the challenges of 
restoring vigorous, sustained economic and job growth in the years 
ahead.

                               __________
    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics

    Madam Chair and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment decreased by 247,000 in July, and the 
unemployment rate was little changed at 9.4 percent. Payroll job losses 
over the past 3 months have now averaged 331,000, compared with an 
average of 645,000 over the prior 6 months. Employment has fallen by 
6.7 million since the start of the recession in December 2007. In July, 
employment declines continued in many of the major industry sectors.
    Construction employment fell by 76,000 over the month, with losses 
throughout the component industries. Over the past 3 months, job losses 
have averaged 73,000 compared with 117,000 over the prior 6 months. 
Employment in construction has fallen by 1.4 million since December 
2007.
    Manufacturing employment also continued to decline, with a loss of 
52,000 in July. Factory employment has fallen by 2.0 million since the 
start of the recession.
    The seasonally-adjusted employment estimate for motor vehicles and 
parts rose over the month (28,000). Because layoffs in auto 
manufacturing already had been so large, fewer workers than usual were 
laid off for seasonal shutdowns in July. Thus, the seasonally-adjusted 
gain does not necessarily indicate improvement in the industry. 
Employment in motor vehicles and parts manufacturing has been on a 
long-term decline. The number of jobs in the industry, 661,000, is now 
half what it was early in 2000.
    In July, job losses continued in wholesale trade, transportation 
and warehousing, and financial activities. However, these industries 
have lost fewer jobs on average since May than during the prior 6 
months. Similarly, job losses have lessened substantially in temporary 
help services. Employment in leisure and hospitality has been little 
changed over the past 3 months. Health care employment grew about in 
line with the trend thus far in 2009.
    Average hourly earnings for production and nonsupervisory workers 
in the private sector were up by 3 cents in July to $18.56. Over the 
past 12 months, average hourly earnings have risen by 2.5 percent. From 
June 2008 to June 2009, the Consumer Price Index for Urban Wage Earners 
and Clerical Workers declined by 1.7 percent.
    Turning now to some measures from our household survey, the 
unemployment rate in July was 9.4 percent, little changed for the 
second consecutive month. The rate had been 4.9 percent when the 
recession began. There were 14.5 million unemployed persons in July.
    The number of long-term unemployed continued to rise. In July, 5.0 
million people had been unemployed for more than 6 months, accounting 
for 1 in 3 unemployed persons.
    The employment-population ratio was 59.4 percent in July. The ratio 
has fallen by 3.3 percentage points since the recession began.
    Among the employed, there were 8.8 million persons working part 
time in July who would have preferred full-time work. After rising 
sharply last fall and winter, the number of such workers has been 
little changed for 4 consecutive months.
    In summary, nonfarm payroll employment fell by 247,000 in July, and 
the unemployment rate was little changed at 9.4 percent.
    My colleagues and I now would be glad to answer your questions.

    [GRAPHIC] [TIFF OMITTED] T4511.001
    
    [GRAPHIC] [TIFF OMITTED] T4511.002
    
    [GRAPHIC] [TIFF OMITTED] T4511.003
    
    [GRAPHIC] [TIFF OMITTED] T4511.004
    
    [GRAPHIC] [TIFF OMITTED] T4511.005
    
    [GRAPHIC] [TIFF OMITTED] T4511.006
    
    [GRAPHIC] [TIFF OMITTED] T4511.007
    
    [GRAPHIC] [TIFF OMITTED] T4511.008
    
    [GRAPHIC] [TIFF OMITTED] T4511.009
    
    [GRAPHIC] [TIFF OMITTED] T4511.010
    
    [GRAPHIC] [TIFF OMITTED] T4511.011
    
    [GRAPHIC] [TIFF OMITTED] T4511.012
    
    [GRAPHIC] [TIFF OMITTED] T4511.013
    
    [GRAPHIC] [TIFF OMITTED] T4511.014
    
    [GRAPHIC] [TIFF OMITTED] T4511.015
    
    [GRAPHIC] [TIFF OMITTED] T4511.016
    
    [GRAPHIC] [TIFF OMITTED] T4511.017
    
    [GRAPHIC] [TIFF OMITTED] T4511.018
    
    [GRAPHIC] [TIFF OMITTED] T4511.019
    
    [GRAPHIC] [TIFF OMITTED] T4511.020
    
    [GRAPHIC] [TIFF OMITTED] T4511.021
    
    [GRAPHIC] [TIFF OMITTED] T4511.022
    
    [GRAPHIC] [TIFF OMITTED] T4511.023
    
    [GRAPHIC] [TIFF OMITTED] T4511.024
    
    [GRAPHIC] [TIFF OMITTED] T4511.025
    
    [GRAPHIC] [TIFF OMITTED] T4511.026
    
    [GRAPHIC] [TIFF OMITTED] T4511.027
    
    [GRAPHIC] [TIFF OMITTED] T4511.028
    
    [GRAPHIC] [TIFF OMITTED] T4511.029
    
  

                                  <all>

</pre></body></html>
